                                      Audit Report on 


                               Sources of Credit Elsewhere 


                                  for 7(a) Business Loans 



                                     Washington, D.C. 



                         AUDIT REPORT NO. S-3-W-OIO-OIS 





This report may contain proprietary information subject to the provisions of 18 USC 1905 and
must not be released to the public or another agency without permission ofthe Officc of
Inspector General.
                          U.S. SMALL BUSINESS ADMINISTRATION 

                             OFFICE OF INSPECTOR GENERAL 

                                  Washington, D.C. 20416 





                                                                           AUDIT
                                                                         REPORT
                                                                 Issue Date: Sept. 18, 1995
                                                                 Number: S-3-W-OIO-OI8
 To:             John Cox,
                  Associate Administrator for Financial Assistance


 From:
                 L~.t/!tJ!i:£itant
                 for Auditing
                                               rnspector Generru


 Subject:        Audit Report on Sources of Credit Elsewhere 

                 for 7(a) Business Loans 


       We performed an audit of Sources of Credit Elsewhere for 7(a) Business Loans for the
period October 1992 through June 1994. The summary section on page I of the report provides a
synopsis of the audit fmding and recommendations.

        The fmdings included in this report are the conclusions of the Auditing Division based 

upon the auditors' testing of the auditee's operations. The finding and recommendations are 

subject to review and implementation of corrective action by your office following existing 

Agency procedures for audit follow-up and resolution. 


        Please provide us your management decisions for the recommendations with 80 days.
Record your management decision on the attached SBA form 1824, "Recommendation Action
Sheet," and show either your proposed corrective action and target date for completion, or an
explanation of your disagreement with our recommendations.

      Should you or your staff have any questions, please contact Garry L. Duncan at (202)
205-7732.

Attachment (I)
                              AUDIT REPORT ON
                      SOURCES OF CREDIT ELSEWHERE FOR
                            7(a) BUSINESS LOANS
                                Washington, D.C.

                                TABLE OF CONTENTS
SUMMARY                                                              PAGE



INTRODUCTION

     A. Background
                                                                      I
     B. Audit Objectives and Scope
                                                                      3
     C. Follow-up on Prior Audits
                                                                      3
RESULTS OF AUDIT

     Finding and Recommendations:
            SBA Field Managers and Loan Specialists Tolerate Loans
            to Borrowers Who Could Get Credit Elsewhere               5
APPENDICES

    A. Prior Audit Reports with Credit Elsewhere Loans
    B. Management Response
    C. Report Distribution
                                           SUMMARY

         Section 7(a) of the Small Business Act authorizes the general business loan program of
 the Small Business Administration (SBA). This program provides assistance to new or ongoing
 small businesses, primarily in the form of SBA-guaranteed loans made by private lenders. The
 objective of the audit was to determine how SBA applies the rule that 7(a) loans are not to be
 made to borrowers who have credit elsewhere (CE).

         Questionnaires were sent to SBA loan specialists and district office managers throughout
 the country. The responses showed that for a variety of reasons the loan specialists and district
 office managers tolerate loans to borrowers who could get credit elsewhere. Based on the
 estimates of those responding to the questionnaires, from $244 million to $316 million a year is
 loaned to borrowers who have credit elsewhere and are, therefore, ineligible for an SBA­
 guaranteed loan. This diverts funds from eligible borrowers and gives an unfair competitive
 advantage to SBA lenders.

        To assure the best use of7(a) business loan funds, the Associate Administrator for 

 Financial Assistance should: 


 •	     Reemphasize the credit elsewhere rule to district offices and participating lenders.

 •	     Reemphasize the requirement that lenders certify conventional credit was not available
        for loan refinancing from other sources at reasonable terms.

 •	     Require district offices to consider the availability of credit elsewhere when they review
        applications for SBA loan guarantees.

 •	     Require district offices to include an evaluation of credit elsewhere practices in periodic
        reviews of lenders and verify that such evaluations are accomplished through the
        Computerized Internal Control Review process.

 •	     Obtain a legal opinion from the Office of General Counsel on the practice of permitting
        lenders to make SBA loans if the lender has a regulatory restriction that precludes a
        conventional loan.

         The Associate Administrator for Financial Assistance agreed with the report's
. conclusions. With regard to the recommendations, he stated that three of the five would be
  implemented, and proposed acceptable alternative procedures for two.

        The findings included in this report are the conclusion of the OIG's Auditing Division
 based upon the auditors testing of the auditee's operations. The findings and recommend­
 ations are subject to review, management decision, and corrective action by your Office in
 accordance with existing Agency procedures for foUow-up and resolution.

                                                  i
                                             INTRODUCTION 


A.      BACKGROUND 


       Section 7(a) of the Small Business Act authorizes the Small Business Administration
(SBA) to guarantee loans to small businesses who cannot get credit elsewhere. The program
enabled banks and other SBA-certified lenders to make nearly 36,000 loans totaling $8.1 billion
during Fiscal Year 1994, an all-time high and a 36 percent increase over 1993.

        The "credit elsewhere" rule is established by Section 7(a)(I) of the Act, which states, "No
financial assistance shall be extended pursuant to this subsection if the applicant can obtain credit
elsewhere." Credi,t elsewhere (CE) is defined in Section 3(h) as follows:

               For purposes ofthis Act, the term "credit elsewhere" means the availability of credit
               from non-Federal sources on reasonable terms and conditions taking into
               consideration the prevailing rates and terms in the community in or near where the
               concern transacts business~ or the homeowner resides, for similar purposes and
               periods oftime.

        Because of the credit elsewhere rule, SBA has sometimes been characterized as a lender
oflast resort.

        SBA program regulations in the Code of Federal Regulations (CFR) paraphrase the credit
elsewhere rule as follows: "Applications for Financial Assistance shall be considered only when
the desired credit is not otherwise available on reasonable terms from non-Federal sources" (13
CFR 120.103-1). Credit is considered "otherwise available" ifit can be obtained from a
conventional loan from the participating lender, a conventional loan from another lender or from
the borrower's own resources. To establish if funds are otherwise available, the regulations
require SBA to consider whether the borrower could obtain money from:

•      sale of securities
•      disposal of assets not necessary for growth
•      personal resources of the owner, management or principal shareholders

         Proof that a borrower has been refused by other lenders is required for direct SBA loans,
but not for guaranteed loans, which are the bulk ofSBA loans. The lender applying to SBA for a
loan guarantee certifies on Form 4-1, "Without the participation of SBA to the extent applied for
we would not be willing to make this loan, and in our opinion the financial assistance applied for
is not otherwise available on reasonable terms." The regulation at 13 CFR 120.103-1(a)(2) states
that this certification "will generally be accepted as sufficient documentation in lieu of a letter(s)
of decline."

       SBA's internal operating policies on credit elsewhere are contained in SOP 50 10, Section
4, which states, "The extension of SBA credit is prohibited where the financial assistance

                                                         1
requested is otherwise available on reasonable tenns." The SOP repeats the 13 CFR guidance on
lender certifications, but adds, "Bank refusal should not be considered the full test of
unavailability ofcredit. If credit appears reasonably available from other sources, an SBA loan
cannot be granted."

        The SOP requires consideration of personal resources of any principal with a 20 percent
share in the business. The following rules apply to the family ofeach principal:

(1) Liquid assets are considered as credit elsewhere, but there are exemptions for:

•       life insurance cash value and IRAs
•       $50,000 per family or 25% ofloan value, whichever is greater
•       reasonable educational expenses

The SOP states:

       Excess assets which could be used to raise funds in lieu of part or all ofan SBA loan request must be
       injected prior to SBA financing unless such use would make unreasonable demands on the principals.
       The maintenance of reasonable personal reserves will be permitted to provide for the livelihood of
       principals and for contingent needs.

(2) Sale or refinancing of real estate "may be considered" if it would supply the majority of the
loan request, but owner-occupied residences and second homes are exempted.

       The SOP gives loan officers discretion to make exceptions when the rules would cause a
hardship, but adds, "SBA does not consider the desire to protect one's personal estate or that
income taxes will accrue on capital gains resulting from the sale ofassets to constitute a
hardship."

        Prior audits of the oro have identified loans to borrowers who had credit elsewhere. In
 II audits conducted from 1989 through 1993, the oro reviewed 305 loans in sufficient detail to
evaluate whether there was credit elsewhere. A new review of these audits concluded that 39 of
the 305 loans (12.8 percent) totaling $15.8 million were made to borrowers who had credit
elsewhere (see Appendix A for a list of the 11 audit reports).

       Various types of credit elsewhere were present in the 39 loans, including:

•       liquid assets and owned real estate
•       ability of the borrower to qualify for a conventional loan
•       refinancing ofan existing conventional loan (the existing loan is credit elsewhere)




                                                          2

        In this report, a "CE loan" is one in which the borrower had credit available elsewhere,
thus, should not have been given an SBA-guaranteed loan.


B.     AUDIT OBJECTIYE AND SCOPE

         The objective of this audit was to determine how SBA officials apply the credit elsewhere
rule in the review and approval ofSBA loans. This was accomplished by the use of two
questionnaires to obtain the perceptions and attitudes of SBA field office personnel for the period
of October 1992 through June 1994.

       One questionnaire was for field office managers. The questionnaire was completed by
132 of 135 district directors and assistant district directors, a 98 percent response rate. The other
questionnaire was sent to half of SBA's loan specialists selected randomly. Out of 135
questionnaires sent to loan specialists, 117 or 87 percent were completed. The loan specialists
responding had an average of nine years experience reviewing 7(a) loans.

       Prior to their distribution, the draft questionnaires were reviewed by the Office of
Financial Assistance. They provided valuable comments that were used to complete the
instruments.


C.      FOLLOW-UP ON PRIOR AUDITS

        OIG Audit Report No. 1-2-1-003-317, "National Audit Report - Preferred Lenders
Program," contained a finding that credit elsewhere was not being considered consistently by
7(a) lenders. Lenders were ignoring personal resources of borrowers and marketing SBA loans
when conventional credit was available. Lenders were also using their own policies against
long-term conventional loans or a low cash reserve position as a basis for certifYing that funds
were "not otherwise available" to the borrower without the SBA guarantee.

       SBA's Office of Financial Assistance (OFA) supported the lenders' position that low cash
reserves by the lending bank can satisfY the credit elsewhere rule. In response to the audit, the
Assistant Administrator for Financial Assistance wrote on April 1, 1992:

        The Office of Financial Assistance maintains. and has always maintained, thai an otherwise eligible
        small business, thai is denied. loan solely because its bank account is in an illiquid position, is fully
        eligible to receive an SBA guaranty.

        Under this premise, an otherwise creditworthy borrower is eligible to receive the guaranty if the lender
        has insufficient funds to make the loan; must sell the major portion in the secondary market; and, must
        have an SBA guaranty in order to effect the sale.

        [n addition, SBA has always ruled that a guaranty is eligible if needed to approve. loan in an amount
        beyond the bank's legal lending limit for an otherwise creditworthy and eligible borrower.


                                                             3
       The audit recommendation to obtain Congressional clarification of the credit elsewhere
rule was resolved by OIG/OFA agreement to seek an opinion from SSA's Office of General
Counsel. However, that opinion has not been obtained.




                                             4

                                        RESULTS OF AUDIT 


FINDING 	                 SBA field managers and loan specialists tolerate loans to borrowers who
                          could get credit elsewhere.

        Based on the questionnaires, a significant percentage of SBA field managers and loan
specialists think CE loans are submitted by lenders and approved by SBA despite the statutory
prohibition. This is caused by a combination of SBA attitudes and lender incentives. If the
estimates of the managers and loan specialists are correct, from $244 million to $316 miIlion of
CE loans were approved in 1994, depriving eligible borrowers of SBA loan assistance.

Local Office Managers Think the Credjt Elsewbere Rule is Diluted in Practice

        Nearly half of the managers polled thought the 7(a) program was not necessarily viewed
by their local office as a lender of last resort. When asked whether their local office views the
7(a) program as llIIlx for small businesses who cannot get credit elsewhere, only 66 of 130 local
office managers answered "definitely." Eleven answered "no" and 53 answered "qualified yes."
Reasons for the managers' opinions are given later in this report.

CE Indjcators I!W0red by 9 to 35     Percent of Loan Specialists

       In reviewing loan applications, some loan specialists ignore credit elsewhere indicators.
The following table shows the results of a questionnaire item which said, "Please indicate for
each condition, whether you do or do not consider it in your loan eligibility determination."


      Condition                          Number of      Number Who           Percent Who
                                        Respondents     Don't Consider      Don't Consider
       Excess liquid assets                       liS                  II                 9.6
      Equity in real estate                       116                  28                24.1
      Borrower could quality for                  liS                  41                 3S.6
      conventional loan

      Lender would make a                         114                  18                 IS.B
      conventional loan

      Refinancing                                 114                  13                 11.4




                                                   5

Neither Manallers NQr Loan Specialists Think Lenders Are Dilillent on CE

        Both questionnaire groups were asked iflenders adequately consider and address
applicants' access to credit elsewhere when it appears they may not need SBA guarantee
assistance. More than half of the loan specialists and 28 percent of the managers answered
"seldom" or "never," as shown by the following table.


  Do Lenders Adequately Address Credit Elsewhere?                      Loan Specialists        Managers
                                Always                                                    2           IS
                                Usually                                                  52          83
                                Seldom                                                   62          29
                                 Never                                                    2            I
                                                          Total                          118         128

PLP Loans Are Not Adequately Reyiewed for Credit Elsewhere

         SBA approves some banks for the Preferred Lender Program (PLP) where the bank
 makes the credit analysis for SBA. The questionnaires showed a substantial belieftbat PLP
.loans are thereby shielded from SBA analysis of credit elsewhere. Nearly half of the loan
 specialists who review PLP loans, or 29 out of 64, said they did not consider credit elsewhere in
 their PLP loan review. Managers were asked whether their office's PLP review process was
 sufficient to disclose indications of credit elsewhere; 53 managers answered "no," 46 answered
 "yes," and 22 were not sure. By contrast, 123 of 128 managers answered "yes" for non-PLP
loans.

CE Indicators Identified by 77 of 117 Loan Specialists

        Loan applications with indicators of credit elsewhere had been identified by 77 out of 117
loan specialists. These 77 loan specialists were asked to estimate the rate of occurrence of the
five types of indicators used in this audit. The results are shown on the following table.


     Indicator That Borrower Has                 Number Who             Average Estimate of
           Credit Elsewhere                      Said It Occurs         Rate of Occurrence
  Excess liquid assets                                            58            32.1 %
  Equity in real esta/e                                           65             34.0
  Borrower could quality for conventional loan                    52             26.3
  Lender would make conventional loan                             33             12.7
  Refinancing                                                     53             34.5


                                                    6

                                      Reasons for Tolerance of CE Loans

        Managers and loan specialists attributed the tolerance of CE loans to a variety of factors,
including lender incentives and attitudes ofboth lenders and SBA officials about the nature of
the 7(a) program.

Reasons Lenders Submit Loan Applications Showi n" Credit Elsewhere

        Managers and loan specialists were each asked to check a list of possible reasons for
lenders to submit SBA loan applications even though the borrower had credit elsewhere. The
question was answered by 113 managers who did not think lenders always adequately consider
CE and 77 loan specialists who had seen loan applications with CE indicators. The results are
shown on the following table.


  Reasons for Lenders to Submit Loan                             Number Who Checked This Reason
  Applications Although Borrower Had Credit                       Managers       Loan Specialists
  Elsewhere                                                      (Total = 113)     (Total =77)
  Lender does not view SSA loans as loans of last reson.              65                50
  Lender believes it is unlikely SSA would question credit            17                48
  elsewhere as an eligibility requirement.
  Lender primarily does business with applicants that qualify         43                SO
  for conventional credit.
  Applicants with credit elsewhere are bener credit risks,            37                38
  which minimizes defaults and improves the lender'S standing
  withSSA.

  Profits in SSA's secondary market provide incentives to             34                38
  make larger long-teno loans; borrowers with credit
  elsewhere give the best opponunity to use this market.

  Secause oflhe secondary market incentive, the lender                13                27
  influences applicants 10 include unnecessary real estate
  financing in loan requests.

  Regulatory concerns such as Joss reserve limits cause the           49                40
  lender to want an SSA guarantee even when the applicant
  qualifies for conventional credit.


        See the Follow-up on Prior Audits section above for a discussion oflender actions on
credit elsewhere.




                                                             7
Reasons Managers Don't Think 7fa) Prol:ram Is Lender of Last Resort

       The 64 managers who did not think their local office "definitely" prohibits CE loans were
asked to check a list of possible reasons for their opinion. The results on the following table
show that a variety of policy considerations are being given priority over the credit elsewhere
rule.


                                                                                    Managen Checking This
  Reasons Why Local Office Does Not View 7(a) Program                                Reason (Total = 64)
  as Only a Lender of Last Resort
                                                                                    Number     Percent
  The program has evolved into credit assistance to small businesses regardle..       22         34%
  ofneed.
  Headquaners does not emphasize enforcement of the credit elsewhere rule.            20          31
  Because of pressure to minimize losses from guarantees, SBA and lenders             27          42
  need to approve some high-quaJity, low-risk loans, even iferedit is available
  elsewhere.
  Lenders might not actively participate in the program ifthey could only make        26          41
  SBA-guaranreed loans to borrowers who have DO eredit elsewhere.
  Lenders prefer SBA-guaranteed loans because of profits on secondary market          25          39
  sales and they might not actively participate ifthese profits were curtailed by
  enfon:ement of tho credit elsewhere rule.

  Regulatory concerns, such as loss reserve rules. C8USC.somelenders to use           28          44
  SBA-guaranreed loans to applicants who have credit elsewhere. These
  lenders might not actively participate ifthey were not allowed to make this
  type of loan.




                                                            8

Reasons Loan Specjaljsts Approye CE Loans

       Forty loan specialists said they approved loans even though the borrower had credit
elsewhere. These 40 loan specialists were asked to check off a list of reasons why they approved
CE loans, with the results shown on the following table.


 Reasons for Loan Specialists to                         Number of Specialists Citing This Reason
 Approve Loans to Borrowers Who                                       (Total =40)
 Have Credit Elsewhere
                                                             A Reason            Primary Reason
 The SSA loan specialist is expected to rely                    30                      16
 primarily on the representations and certifications
 made by the lender.
 Guidelines in SOP 50 IO are nol adequate to serve              18                      I3
 as a basis for questioning the lender's judgmenl on
 credil elsewhere.
 CE loans afford minimal risk ofloss and are needed             17                      4
 to strengthen SSA's loan portfolio.

 CE loans assist the local office and SSA in meeting            23                      17
 or exceeding loan production goals.
  Bec:ause of higher profits to lende.. on 7(a) loans,          12                      3
  many lenders might not panicipate in the program
  if precluded from making CE loans.
                                                         •
 SSA management does nol view 7(3) loans as loans               21                      8
 of lasl resort and, generally. does nol expect CE
 loans to be turned down.


       As noted earlier (Background), the program regulations and SOP create a presumption in
favor of the lender certification that credit is not otherwise available. No documentation is
required to support the lender certification, especially for PLP loans.


                                      Impact ofSBA Tolerance ofCE Loans

       SBA's tolerant attitude on credit elsewhere affects the 7(a) loan market in several ways,
including (I) approval ofan estimated $244.5 to $316 million a year of loan guarantees for
borrowers who are ineligible because they have credit elsewhere, (2) diversion of funds from
needy applicants, and (3) unfair competition for banks making conventional loans.

A Significant AmQunt of CE Loans Are Approved

         Loan specialists estimated that CE indicators were present in 6.7 percent ofPLP loan

                                                         9
 applications and 8.2 percent of other loan applications. Further, an estimated 37.5 percent of
 these applications were nevertheless approved despite the CE indicators.

         Managers were asked to estimate the percentage of loan approvals that were CE loans.
 The average of71 respondents, including 37 who said no CE loans were approved, was 3.9
 percent.

         If these estimates are valid, CE loans totaled $244.5 million to $316 million in 1994, out
 of the $8.1 billion in total7(a) loans in 1994. The calculations are shown below.

 Loan Specialist Estimate:

        PLP Loans
                CE rate in applications X Loan Approval Rate = Overall CE Loan Rate
                       .067             X    .375          = .025
                CE Loan Rate (.025) X $J.1 Billion         = $27.5 Million ofPLP CE Loans
        Non-PLP Loans
                CE rate in applications X Loan Approval Rate       = Overall CE Loan Rate
                       .082             X     .375             =     .031
                CE Loan Rate (.031)     X   $7 Billion = $217 Million ofNon-PLP CE Loans

        Amount ofCE Loans Per Loan Specialist Estimate: $244.5 milljon

Managers Estimate:

        CE Loan Approval Rate      X   Total Loans      =   CE Loan Estimate
                .039               X   $8.1 billjon     =   $3 J6 million

      Based on the current subsidy rate of 2.7 percent, the budget impact of the loan specialist
and manager estimates would be $6.6 and $8.5 million, respectively.

CE loans Divert Funds from    Needy AnpJicants

        Significant proportions of both questionnaire groups believed that CE loans deprive truly
needy applicants of SBA loan funds. Sixteen out of32 loan specialists with an opinion said that
cutting out CE loans would result in service to needy applicants not now being served. When
asked if they believe that CE loans reduce credit assistance to truly needy borrowers, 39 of 110
managers with an opinion answered "yes" or "probably. "




                                                 10 

SSA-Gyaranteed Loans Are Unfair Competition for Conyentional Lenders

         When lenders offer SBA-guaranteed loans to applicants that can obtain credit elsewhere,
it results in an unfair competitive advantage over non-SSA lenders. In this audit, we
encountered two examples.

        A Northeast banker complained that loan packagers were ananging for existing loans to
be refinanced with SSA-guaranteed loans at another bank. The borrowers did not need
guaranteed financing due to their credit standing; the first bank would have refinanced the
conventional loans without SBA guarantees. The conventional loans were for eight or 10 years
with a balloon and the SSA loans had a 25-year teom. The conventional banker stated, however,
that he would refinance the loans ifthe borrower remains credit worthy.

        A West Coast lender complained to SSA that a competing lender was refinancing his
loan with an SBA-guaranteed loan. The conventional lender said that the SSA lender's
certification that credit was "not otherwise available" could not have been accurate because no
contact was made except to ask for a payoff. In fact, the conventional lender said he was willing
to refinance at the same or a better rate than offered by the SBA lender. The conventional lender
stated that losing loans to the SSA lender threatened his fiom's existence.

                          Examples ofCE Loans Identified in Prior Audits

        Prior 010 audits have identified loans to borrowers who had credit elsewhere. In II
audits conducted from 1989 through 1993, the 010 reviewed 305 loans in sufficient detail to
evaluate whether there was credit elsewhere. A new review of these audits concluded that 39 of
the 305 loans (12.8 percent) totaling S15.8 million were made to borrowers who had credit
elsewhere. Credit elsewhere available for these loans, included the following sources:

•	       liquid assets and owned real estate
•	       ability of the borrower to qualify for a conventional loan
•	       refinancing of an existing conventional loan

         Examples of these types ofcredit elsewhere found in previous 010 reports are discussed
below:

Liquid Assets and Owned Real Estate

•	       A Florida bank made a $100,000 PLP loan to partially finance building construction
         costs. The applicant's reported net worth was about S1.5 million after SSA exemptions
         were excluded. The personal assets of the applicant included S3oo,OOO in savings and
         real estate and $971,000 in other investments. The SBA District Director advised us that
         the lender had the right to deteomine the applicant's eligibility but would be reminded of

                                                  11
       the requirement regarding excess liquid assets.

•	     A bank in Texas made a PLP loan for $625,000 to refinance a real estate note held by a
       non-SBA lender. The owners (husband and wife) of the small business reported a
       personal net worth of $6.3 million on their loan application. After adjusting for allowed
       exemptions and value of ownership interest in the small business, the owners had
       unencumbered assets of approximately $1.9 million. The assets consisted of real estate
       valued at about $900,000 with the remaining assets held in various savings and trust
       accounts. This lender stated that the borrowers were eligible because the amount of the
       loan was larger than the bank's charter permitted it to make for anyone customer. We
       were told by the borrower that a loan elsewhere was never applied for. The district office
       did not have sufficient information to evaluate the personal finances of this borrower
       before the lender approved the loan.

•	     A small business lending company in Texas made a $1.45 million non-PLP loan to
       finance the purchase of a motel property. The applicant had a personal net worth of $3.5
       million excluding exempted assets. The net worth consisted primarily of equity in
       various motel properties and one unencumbered investment property located in
       California, valued at $1.4 million. The loan was only secured by the real estate to be
       purchased. The District Director stated that investment real estate was not considered a
       potential source ofCE because the borrower cannot be required to sell.

Ability of the BOrrower to Qualify for a Conventiopal Loan

•	     A Northeast bank's regular policy was to market SBA loans to small business applicants
       flI'St, then make conventional credit available only when an SBA loan was unacceptable
       to the borrower. According to the lender, since the guaranteed portion ofSBA loans was
       salable on the secondary market, the use of bank resources would be moderate when
       compared to conventional loans. District officials commented that due to the lender's
       liquidity position it could not adequately service small business borrowers. Further, the
       district office would not question the lender's judgment as to the availability ofcredit
       elsewhere.

•	     Customers receiving SBA loans at a Southwest bank were as creditworthy as those
       receiving conventional loans. For two of the twelve loans examined at this bank, the
       lender was willing to offer applicants either an SBA or conventional loan with
       comparable terms. The applicants apparently accepted the SBA loans 0($710,000 and
       $200,000 because interest rate adjustments were more advantageous. This lender was
       clearly ready to make conventional loans to the borrowers at reasonable terms ifSBA
       guarantees had not been readily available.

•	     A Wisconsin bank made a PLP loan of $1 million to a small business borrower as part of
       a $17 million loan package funded by severailenders. The lender could provide no

                                                12
       justification for making the SSA loan in light of the substantial financing that was
       extended to this business without SSA's backing.

Refinancini of an Existini Conventional Loan

•	     In February 1993 a bank loaned 5243,000 to refmance the balance of the applicant's real
       estate note held by the same bank. The original amount of the bank's note was $326,000
       on a loan obtained by the borrower in May 1987 to purchase business real estate. The
       conventional bank loan was for a term of 15 years with a fixed interest rate of 11 percent.
       The SSA loan was also for 15 years, but had an initial interest rate of7.75 percent. The
       loan was subject to a monthly adjustment based on the movement ofprime interest rates
       but could not exceed 12.75 percent. The SSA loan was justified on the basis that it
       would decrease debt service requirements for the business by $ 15,000 a year and allow
       additional cash flow to upgrade equipment and make minor repairs to the building. We
       concluded that the original loan by the bank, obtained by the borrower at reasonable
       terms without Federal guaranty assistance, was credit elsewhere. The lender did not offer
       a compelling reason to convert 80 percent ofits existing loan exposure to a Federal
       guaranteed loan. The lender did not specity the amounts needed for equipment upgrades
       and building upkeep nor explain why other short-term fmancing could not meet these
       requirements.

                                    RECONmdENDA1l0NS

       We recommend that the Office ofFinancial Assistance (OFA) take the following steps to
prevent SSA-guaranteed loans to applicants with credit elsewhere:

       1A. Reemphasize the credit elsewhere rule to district offices and participating lenders.

        IS. Reemphasize the requirement that lenders certity conventional credit was not
available for loan refinancing from other sources at reasonable terms.

       1C. Require district offices to consider the availability of credit elsewhere when they
review applications for SSA loan guarantees.

        1D. Require district offices to include an evaluation of credit elsewhere practices in
periodic reviews of lenders and verity that such evaluations are accomplished through the
Computerized Internal Control Review process.

        IE. Obtain a legal opinion from the Office ofGeneral Counsel on the practice of
permitting lenders to make SSA loans if the lender has a regulatory restriction that precludes a
conventional loan.



                                                 13
Manaaement Response


       The Associate Administrator for Financial Assistance agreed with the report's
conclusions (see Appendix B). He stated that recommendations lA, IC, and IE would be
implemented, clarified OFA requirements for 1B, and proposed an additional action for 1D.

Evaluation of Management's Response.

     Actions outlined by OFA are responsive to our recommendations. An evaluation of the
comments resulted in:

      •       dropping a draft recommendation regarding borrower certification (Paragraph 2),

      •       revising recommendation IB to "reemphasize" rather than "require" lender
              certification (paragraph 3), and

      •       amending recommendation 1D to incorporate verification ofdistrict office
              evaluations in the Computerized Internal Control Review process (paragraph 5).




                                            14 

                              Appendix A




                Loans
               Examined
                                       N/A
                  40      3       1·2·9·008·045

Bank    7/90      38      2                  52
                          2

                  14              4-3·W-007·014




        3/90      25      3
        1191     M.       i
Total
                                                   Appendix B

                 U.S. SMALL BUSINESS ADMINISTRATION 

                        WASHINGTON, D.C. 2<U16 





Date:      August 11, 1995
To:        Peter L. McClintock, Assistant
           InSpeC~Gen~ Auditing
From:      ~o
        ~~~~cia      Administrator
           Office of Financial Assistance
Subject:   Draft Audit Report - Sources of Credit Elsewhere for
                7(a) Business Loans

This is in response to the referenced Draft Audit Report.
The following comments are offered in the order of the
recommendations listed in your memo.
1.  OFA supports and plans to implement the recommendation to
reemphasize the "credit elsewhere" rule to district offices and
participating lenders. Most lenders try to be diligent in this
regard, but this issue is not one of significant importance to
them. As a result, they tend to lose sight of its relevance to
the SBA. Reemphasizing this rule to the lenders will remind them
of our intent and function. OFA will develop, and issue to the
field, a Notice restating the intent of our credit elsewhere
policy and the importance of it. This will be accomplished this
Fall.
2. Requiring loan applicants to certify that they tried and
failed to obtain the requested financing from other sources
before requesting an SBA loan is demoralizing to small business
owners, but unenforceable by the Agency. As found when we were
making direct loans, very few banks resist someone's request for
a "turn down" letter, especially if the loan request is for a
relatively small amount of money, is for a start-up, or if the
applicant has not been a customer of the bank. And so, applicant
certification that they tried and failed to obtain the requested
financing would be meaningless. Furthermore, it is the lender's
decision whether to request SBA's guaranty on their proposed
loan, not the applicant's. At the time the small business
concern submits its loan request to the bank, the applicant may
or may not have considered SBA financing. Only after the lender
analyzes the application, will the lender decide if it will make
the loan itself, make the loan with an SBA guaranty, or decline
the loan. The lender's certification that it would not make the
loan without SBA's guaranty is considered sufficient.
3. Execution of the Lender's Application for Guaranty by the
lender constitutes certification that the lender would not be
willing to extend credit on the requested terms without SBA's
guaranty. OPA deems this to include those cases involving
refinancing and understands it to mean that the lender would not
refinance the debt on terms comparable to the SBA loan requested
or that the applicant no longer meets the lender's conventional
underwriting criteria. However, OFA expects to revisit its
policy on debt refinancing within the next several months and
will ensure that this understanding is made clear in new policy
guidance.
4. As previously stated, this is a requirement of the Agency and
this Office in accordance with 13 CFR and SOP 5010 3. Reemphasis
of the "credit elsewhere" rule, through the issuance of the
Notice referenced at Item #1, should achieve the recommendation
to require district offices to consider the availability of
credit from other sources when they review applications for SBA
loan guarantees.
s. Verifying that an evaluation of credit elsewhere had been
accomplished is a valid recommendation with great potential
benefit to SBA. Rather than field offices performing the
verification, this Office shall be glad to implement it by
including it as an element in the Computerized Internal Control
Reviews.
6. OPA will immediately request an opinion from the Office of
General Counsel on the practice of permitting lenders to make SBA
loans instead of conventional loans to borrowers with credit
elsewhere if a regulatory restriction exists that precludes a
lender from making conventional loan shall be requested right
away.
I appreciate your efforts in helping us to maintain the high
level of quality that exists in our loan program and look forward
to working with you in the future in a spirit of mutual
cooperation.


JohnR. Cox
Assistant Administrator
   for Financial Assistance
                                                                 AppendixC



                              OFFICE OF INSPECTOR GENERAL
                                   AUDITING DIVISION

                               AUDIT REPORT DISTRIBUTION




Recipient                                                          Number QreQpies

Administrator
                                                                             1
Deputy Administrator
                                                                             1
General Counsel
                                                                             2
Associate Administrator for Field Operation
                                                                             1
Associate Deputy Administrator for Management & Administration               1
Director, Office of Financial Operations
                                                                             1
Director, Office of Financial Controls
                                                                             1
Associate Administrator for Economic Development                             1
Deputy Associate Deputy Administrator for Economic Development               1

Deputy Associate Administrator for Financial Assistance                      1
U.S. General Accounting Office
                                                                             1
Assistant Administrator of Congressional & Legislative Affairs               1
